CERTIFICATE OF COMPLIANCE
Case No. - - - - Caption: Go New York Tours, Inc., v.
Gray Line New York Tours Inc., et al.,
As required by Supreme Court Rule 33. l(h), I certify that the document
contains 4,617 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 22, 2021.

Vittorio Virili
Record Press, Inc.

Sworn to before me on
March 22, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Co mission Expires April 8, 2024

